   February 15, 2002




Environmental
Programs
Summary Report on the Joint Audit
of DoD Wastewater Treatment
Systems
(D-2002-051)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
 Additional Copies

 To obtain additional copies of this report, visit the Inspector General, DoD,
 Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
 Distribution Unit of the Audit Followup and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
 fax (703) 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
 by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms
CWA                  Clean Water Act
DLA                  Defense Logistics Agency
MoM                  Measure of Merit
NPDES                National Pollutant Discharge Elimination System
ODUSD(I&E)           Office of the Deputy Under Secretary of Defense (Installations
                        and Environment)
                       Office of the Inspector General, DoD
Report No. D-2002-051                                                  February 15, 2002
   (Project No. D2000CK-0216.001)

         Summary Report on the Joint Audit of DoD Wastewater
                         Treatment Systems

                                    Executive Summary

Introduction. The Office of the Deputy Under Secretary of Defense (Installations and
Environment), formerly, the Office of the Deputy Under Secretary of Defense
(Environmental Security), requested that the Inspector General, DoD; Army Audit
Agency; Naval Audit Service; and Air Force Audit Agency perform a joint audit to
determine whether the Services and the Defense Logistics Agency were reporting
correct Clean Water Act information and how well the Services and the Defense
Logistics Agency were managing their resources for wastewater treatment systems.
The Clean Water Act requires all facilities that discharge wastewater to the waters of
the U.S., including Federal facilities, to have permits that establish pollution limits and
specify monitoring and reporting requirements. National Pollutant Discharge
Elimination System permits, which are issued either by the Environmental Protection
Agency or by a state having permitting authority from the Environmental Protection
Agency, regulate pollutants discharged into surface waters by industrial, municipal, and
other facilities. DoD Instruction 4715.6, “Environmental Compliance,” established a
measure of merit for gauging DoD compliance with its National Pollutant Discharge
Elimination System permits in accordance with the Clean Water Act. The joint audit
resulted in separate Service audit agency reports on each respective Service and an
Inspector General, DoD, report on the Defense Logistics Agency. This report
summarizes the following systemic issues from those reports: Clean Water Act
information reporting at the Army, Navy, Air Force, Marine Corps, and Defense
Logistics Agency and Clean Water Act measure of merit definitions.

Objectives. The objective of the joint audit was to determine whether DoD was
accurately and consistently reporting the number of permits and permitted systems
covered by the Clean Water Act and the number of systems in compliance with the Act.
In addition, the joint audit assessed how DoD was managing its resources for
wastewater treatment systems. This report summarizes the reports issued by the IG,
DoD, and the Service audit agencies during the joint audit of DoD wastewater
treatment systems. See Appendix A for a discussion of the scope and methodology.

Results. The Services and Defense Logistics Agency adequately managed resources
for wastewater treatment systems. The Air Force, Marine Corps, and Defense
Logistics Agency consistently and accurately reported the number of wastewater
permits and permitted systems covered by the Clean Water Act and the number of
systems in compliance with the Act. The Army and Navy did not accurately report the
number of wastewater permits, permitted systems, and the number of systems in
compliance. As a result, the Office of the Deputy Under Secretary of Defense
(Installations and Environment) does not have an accurate picture of Army and Navy
compliance with the Clean Water Act, and DoD reports to Congress may not be
accurate.

Actions Taken. During the joint audit, the Office of the Deputy Under Secretary of
Defense (Installations and Environment) initiated action to revise the measure of merit
to make informed resource decisions regarding DoD compliance with the Clean Water
Act. The revised metric will measure the percent of wastewater discharges in
compliance with applicable requirements, both U.S. and overseas, and annual costs of
managing wastewater. The Deputy Under Secretary will require the Services and
Defense Logistics Agency to semiannually report the total number of water pollution
control permits, excluding temporary storm water construction permits, the number of
water pollution control permits that are in compliance, and the cost of wastewater
management. The Deputy Under Secretary plans to implement the Clean Water Act
measure of merit and reporting requirements by early 2003. Based on the actions the
Deputy Under Secretary has taken or initiated, this report makes no recommendations
for additional corrective actions.




                                           ii
Table of Contents

Executive Summary                                            i

Introduction
     Background                                             1
     Objectives                                             3

Finding
     DoD Wastewater Treatment Systems                        4

Appendixes
     A. Scope and Methodology                                9
     B. Audit Reports on DoD Wastewater Treatment Systems   10
     C. Report Distribution                                 11
Background
     The Office of the Deputy Under Secretary of Defense (Installations and
     Environment) (ODUSD[I&E]), formerly, the Office of the Deputy Under
     Secretary of Defense (Environmental Security), requested that the Inspector
     General, DoD; Army Audit Agency; Naval Audit Service; and Air Force
     Audit Agency perform a joint audit to determine whether the Services and the
     Defense Logistics Agency (DLA) were reporting correct Clean Water Act
     (CWA) information and how well the Services and the DLA were managing
     their resources for wastewater treatment systems. The joint audit resulted in
     separate Service audit agency reports on each respective Service and an
     Inspector General, DoD (IG, DoD), report on the DLA (see Appendix B for a
     list of the audit reports). Only the Army Audit Agency report included
     recommended corrective actions. The summary report discusses the following
     systemic issues from the prior reports:

        •    CWA information reporting at the Army, Navy, Air Force,
             Marine Corps, and DLA and

        •    CWA measure of merit (MoM) definitions.

     Clean Water Act. The CWA requires all facilities that discharge wastewater
     to the waters of the U.S., including Federal facilities, to have permits that
     establish pollution limits and specify monitoring and reporting requirements.
     The Environmental Protection Agency has primary authority for implementing
     and enforcing the CWA. National Pollutant Discharge Elimination System
     (NPDES) permits regulate pollutants discharged into surface waters by
     industrial, municipal, and other facilities. NPDES permits also regulate
     industrial point sources that discharge into other wastewater collection systems
     or that discharge directly into receiving waters. NPDES permits are issued
     either by the Environmental Protection Agency or by a state having permitting
     authority from the Environmental Protection Agency.

     DoD Environmental Compliance. DoD Instruction 4715.6, “Environmental
     Compliance,” April 24, 1996, requires the ODUSD(I&E) to monitor DoD
     environmental compliance. DoD Instruction 4715.6 established a MoM for
     gauging DoD compliance with its NPDES permits in accordance with the
     CWA. DoD compliance with the MoM is determined by the:

            • number of NPDES permitted wastewater systems and

            • number of systems meeting NPDES permit standards.




                                       1
In May 1998, the ODUSD(I&E) revised the MoM so that DoD would not only
focus on maintaining compliance but also look at pollution prevention
alternatives as the means for achieving and maintaining compliance. The
revised MoM to meet this goal was divided into two parts:

     • CWA permitted water pollution control systems and activities shall be
       in compliance with their permit requirements and

     • CWA pollution prevention nonrecurring investments shall increase to
       15 percent of the total CWA nonrecurring investments (combined
       pollution prevention and compliance) by FY 2004.

To monitor the Services and DLA progress, the ODUSD(I&E) issues a
semiannual data call for the Environmental Quality In Progress Review,
requiring that the Services and DLA report the number of CWA permits,
permitted systems, and permitted systems in compliance with the CWA.
Additionally, the ODUSD(I&E) requires reporting of the total number of
nonrecurring projects and associated costs that are required to achieve or
maintain 100 percent compliance with CWA standards. Components are to
include pollution prevention projects that are cost-effective measures. Data
collected for the Environmental Quality In Progress Review supports the
Defense Environmental Quality Program Annual Reports to Congress.

Services and DLA CWA Reporting. As of March 31, 2000, DoD
Components reported 2,055 permits, 3,142 permitted systems, and
2,937 permitted systems in compliance with the CWA to the ODUSD(I&E).
Table 1 shows CWA information reported by each Service and DLA.

                     Table 1. Clean Water Act Reporting

                                        Permitted        Compliant
                         Permits         Systems          Systems

   Army                   1,047           1,247            1,158

   Navy                     424           1,251            1,194

   Air Force                444             426               399

   Marine Corps             103             179               150

   DLA                       37              39                36

     Total                2,055           3,142            2,937




                                   2
Objectives
      The objective of the joint audit was to determine whether DoD was accurately
      and consistently reporting the number of permits and permitted systems
      covered by the CWA and the number of systems in compliance with the
      CWA. In addition, the joint audit assessed how DoD was managing its
      resources for wastewater treatment systems. This report summarizes the
      reports issued by the IG, DoD, and the Service audit agencies during the joint
      audit of DoD wastewater treatment systems. See Appendix A for a discussion
      of the scope and methodology.




                                        3
            DoD Wastewater Treatment Systems
            The Services and DLA adequately managed resources for wastewater
            treatment systems. The Air Force, Marine Corps, and DLA consistently
            and accurately reported the number of wastewater permits and permitted
            systems covered by the CWA and the number of systems in compliance
            with the CWA. The Army and Navy did not accurately report the
            number of wastewater permits, permitted systems, and the number of
            systems in compliance. The inaccurate reporting occurred because the
            CWA MoM definitions were ambiguous. As a result, the ODUSD(I&E)
            does not have an accurate picture of Army and Navy compliance with the
            CWA, and DoD reports to Congress may not be accurate.

Reporting of CWA Information
     ODUSD(I&E) Data Call. The ODUSD(I&E) issued semiannual data calls to
     the Services and DLA for the Environmental Quality In Progress Review.
     These data calls required the Services and DLA to submit their total number
     of CWA permits, permitted systems, and permitted systems in compliance
     with the CWA. They also required reporting of nonrecurring projects and
     costs necessary to ensure their wastewater systems maintained 100 percent
     compliance with the CWA. The ODUSD(I&E) required the Services and
     DLA to categorize their permits and permitted systems into one of six
     classifications:

        •    domestic NPDES,

        •    industrial NPDES,

        •    stormwater NPDES,

        •    other permitted wastewater systems,

        •    discharge to publicly owned treatment works, and

        •    other CWA activities.

     The “Definitions and Instructions for CWA Measures of Merit,” April 14,
     1998, (CWA MoM definitions) specified the CWA permits and permitted
     systems to be included under each classification, and what constituted a
     compliant system.

     Services and DLA Reporting. The Army and Navy did not accurately report
     the number of wastewater permits and permitted systems covered by the CWA
     and the number of systems in compliance with the CWA. The Air Force,
     Marine Corps, and DLA consistently and accurately reported the number of
     wastewater permits and permitted systems covered by the CWA and the



                                       4
number of systems in compliance with the CWA. Table 2 shows Service and
DLA reporting of CWA information and audit results at 44 installations
reviewed.

         Table 2. Clean Water Act Reporting by DoD Component at
               Installations Reviewed as of March 31, 2000

                                           Permitted        Compliant
   Component/Installations Permits          Systems          Systems

   Army/7
    Reported                   80             173               82
    Audit Results             155             159               68
   Navy/22
    Reported                  171             577             532
    Audit Results             116             111              88
   Air Force/8
    Reported                    35             26               23
    Audit Results               36             26               23
   Marine Corps/2
    Reported                    35             37               14
    Audit Results               32             34               12
   DLA/5
    Reported                    13             15               14
    Audit Results               13             15               13


      Army Reporting. The Army Audit Agency reviewed seven Army
installations and determined that Army did not accurately report the number of
permits, permitted systems, and systems in compliance with the CWA. The
Army under-reported permits and over-reported permitted systems and
compliant systems because CWA MoM definitions were ambiguous.
Examples of the reporting inaccuracies were: permits incorrectly categorized,
permits reported with no systems identified, and systems reported without a
supporting permit.

     Navy and Marine Corps Reporting. The Naval Audit Service
reviewed 22 Navy installations and determined that the Navy did not
accurately report the number of permits, permitted systems, or compliant
systems. The Navy over-reported permits, permitted systems, and compliance
because the CWA MoM definitions were ambiguous. The Navy reported
permits that were not permits and incorrectly categorized permits. The Naval



                                  5
     Audit Service also reviewed two Marine Corps installations and concluded that
     the installations accurately and consistently reported the number of permits,
     permitted systems, and compliant systems.

           Air Force Reporting. The Air Force Audit Agency reviewed eight
     Air Force installations and determined that the Air Force installation
     environmental managers accurately and consistently reported the number of
     permits, permitted systems, and compliant systems in accordance with
     Air Force interpretation of the CWA MoM definitions. Air Force
     environmental managers analyzed report number differences from year to
     year, determined the causes, and maintained documentation to support each
     change.

          DLA Reporting. The IG, DoD, reviewed five DLA organizations and
     determined that DLA accurately and consistently reported the number of
     permits, permitted systems, and compliant systems. DLA organizations
     experienced difficulties when information on permits and systems were
     reported and categorized to the DLA Headquarters Environmental Quality and
     Safety Policy Office. However, the Environmental Quality and Safety Policy
     Office made changes to correct inaccurate reporting or categorizations by the
     DLA organizations prior to submitting the figures to the ODUSD(I&E).

CWA MoM Definitions
     The Army and Navy did not accurately report CWA information because of
     the ambiguity of the CWA MoM definitions. The Air Force and DLA also
     had difficulty interpreting the CWA MoM definitions.

     Army Interpretation. The Army reported inaccurate CWA information
     because the CWA MoM definitions were unclear, inconsistent, or
     misinterpreted. Some Army installations had difficulty interpreting definitions
     for storm water permits and discharges to publicly owned treatment works or
     other nationally permitted treatment works. In addition, the MoM definitions
     were not clear on how to report other permitted wastewater systems with
     multiple permits for the same system. The Army Audit Agency report
     provided recommendations to improve Army reporting of CWA information
     and recommended the Army coordinate with DoD and the other Services to
     improve and clarify guidance for reporting under the CWA MoM. The Army
     Office of the Assistant Chief of Staff for Installation Management agreed with
     the recommendations and stated that they worked with the CWA Services
     Steering Committee to clarify the guidance.

     Navy Interpretation. The Navy tried to comply with MoM reporting
     requirements but had difficulty with the ambiguity of the language used to
     define the number of permits and systems to report. The Naval Audit Service
     report did not provide recommendations to the Navy because the
     ODUSD(I&E) was in the best position to clarify CWA MoM reporting
     requirements.


                                       6
     Air Force Interpretation. Air Force environmental managers had difficulty
     interpreting the MoM definitions. For example, the definition of water
     pollution control permitted systems did not provide clear guidance for
     counting the separate wastewater systems at one Air Force installation. Air
     Force environmental managers could not readily identify the number of
     separate systems when wastewater from an industrial treatment plant flowed
     into a domestic plant where it was again treated along with domestic
     wastewater before final discharge to a river. The Air Force Audit Agency did
     not make recommendations to the Air Force because the ODUSD(I&E) was in
     the best position to clarify the CWA MoM definitions.

     DLA Interpretation. The DLA organizations experienced difficulties
     reporting CWA information because the CWA MoM definitions were
     ambiguous and did not address the vast differences in the structure of the
     systems and the permit language. In addition, DLA organizations expressed
     confusion over whether a system was compliant or noncompliant. Most DLA
     organizations considered a system compliant until it received a notice of
     violation from the regulating authority. The IG, DoD, did not make
     recommendations in their report on the DLA because the ambiguity of the
     CWA MoM definitions would be addressed in this report.

     As a result of the ambiguity of the MoM definitions, the ODUSD(I&E) does
     not have an accurate picture of Army and Navy compliance with the CWA.
     In addition, the NPDES Permitted Systems section of the Defense
     Environmental Quality Program Annual Reports to Congress may not be
     accurate because of the erroneous Army and Navy information.

Wastewater Treatment Systems Resources
     The joint audit determined that the Army, Navy, Air Force, and DLA were
     adequately managing their resources for wastewater treatment systems. Army
     installations adequately planned and budgeted for environmental projects to
     ensure compliance of their wastewater systems. The Navy operated its
     wastewater treatment plants effectively and efficiently and budgeted adequately
     to comply with CWA requirements. Air Force installations effectively
     managed their wastewater systems budgets, and documentation supporting
     planned and budgeted wastewater projects showed that Air Force
     environmental managers proactively targeted actual and potential wastewater
     compliance issues. The Marine Corps budgeted adequately for wastewater
     treatment systems but could not operate its wastewater treatment plants
     efficiently and effectively because of the plants’ poor physical condition.
     DLA organizations adequately planned projects to replace sewer pipes,
     upgrade pump station and flow meters, and repair systems to prevent
     groundwater infiltration.




                                       7
Actions Taken on CWA Guidance
     During the joint audit, the ODUSD(I&E) initiated action to revise the MoM to
     make informed resource decisions regarding DoD compliance with the CWA.
     In August 2001, the ODUSD(I&E) issued a draft revision of the CWA MoM
     to the Services and DLA for review and comment. The revised MoM will
     measure the percent of wastewater discharges in compliance with applicable
     requirements within the U.S. (CWA permits) and overseas (in accordance with
     Final Governing Standards or the Overseas Environmental Baseline Guidance
     Document or international treaties). The MoM will also measure annual costs
     of managing wastewater. The ODUSD(I&E) will require the Services and
     DLA to semiannually report:

      •   number of water pollution control permits, excluding temporary storm
          water construction permits,

      •   number of water pollution control permits that are in compliance, and

      •   cost of wastewater management.

     The ODUSD(I&E) developed a list of compliance questions to assist the
     Services and DLA in determining compliance status. The ODUSD(I&E) plans
     to implement the CWA MoM and reporting requirements by early 2003 as
     part of the Environmental Quality In Progress Review. The Review also
     includes seven other revised pollution prevention and compliance metrics
     and/or reporting requirements. ODUSD(I&E) plans to provide the Services
     and DLA with a preliminary copy of the revised metrics and reporting
     requirements in June 2002, so the Services and DLA can modify their tracking
     systems to accommodate the metrics. Based on the actions the ODUSD(I&E)
     has taken or initiated, this report makes no recommendations for additional
     corrective actions.




                                      8
Appendix A. Scope and Methodology
    This report summarizes the joint audit of DoD wastewater treatment systems
    performed from June 2000 through November 2001. The Inspector General,
    DoD; the Army Audit Agency; the Naval Audit Service; and the Air Force
    Audit Agency participated in the joint audit and issued reports (see Appendix
    B for a list of the reports). During preparation of the summary report, we
    interviewed the ODUSD(I&E) personnel to determine corrective actions either
    taken or planned that addressed the systemic issues with CWA information
    reporting identified by the joint audit. We reviewed audit summaries and
    selected working papers of our review of the Defense Logistics Agency and
    summaries provided by the Service audit agencies.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data.

    Contacts. We visited or contacted individuals and organizations within the
    DoD. Further details are available upon request.




                                     9
Appendix B. Audit Reports on DoD Wastewater
            Treatment Systems
    Four audit reports were issued on DoD Wastewater Treatment Systems. The
    Inspector General, DoD, report can be accessed on the Internet at
    http://www.dodig.osd.mil. The Army Audit Agency report can be accessed
    on the Internet at http://www.hqda.army.mil/AAAWEB. The Naval Audit
    Agency report can be accessed on the Internet at
    http://www.hq.navy.mil/navalaudit. The Air Force Audit Agency report can
    be accessed on the Internet at http://www.afaa.hq.af.mil.

    Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-087, “Defense Logistics Agency
    Wastewater Treatment Systems,” March 26, 2001

    Army
    Army Audit Agency Report No. AA 02-045, “Army Wastewater Systems,”
    November 9, 2001

    Navy
    Naval Audit Service Report No. N2001-0019, “Naval Wastewater Treatment
    Systems,” March 27, 2001

    Air Force
    Air Force Audit Agency Report No. 00052018, “Clean Water Act Reporting
    and Budgeting,” March 5, 2001




                                   10
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         12
Summary Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Garold E. Stephenson
William C. Gallagher
Benjamin A. Mehlman
Brenda J. Pappas
Michael B. Loos
